           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       EFFECTIVENESS OF
       THE SINGLE SELECT
         EDIT ROUTINE


   September 2007   A-03-07-17065




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 28, 2007                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Single Select Edit Routine (A-03-07-17065)


           OBJECTIVE

           Our objective was to assess the effectiveness of the Single Select edit routine in
           resolving name/Social Security number (SSN) mismatches on reported earnings and
           posting these earnings to the correct earnings records.

           BACKGROUND
           As part of the Annual Wage Reporting process, the Social Security Administration
                                                                                         1
           (SSA) validates the names and SSNs on wage reports submitted by employers against
           SSA’s Numident file—the repository for all issued SSNs. Earnings items that contain a
           name/SSN combination matching the Numident file are posted to the Master Earnings
           File (MEF). 2 Earnings items that cannot be matched to SSA’s records are posted to the
           Earnings Suspense File (ESF)—a file of unmatched items. As of October 2006, the
           ESF had accumulated about $586 billion in wages and 264 million wage items for Tax
           Years (TY) 1937 through 2004. In TY 2004 alone, the ESF grew by $66 billion in
           wages and 9.5 million wage items.

           The Single Select edit routine is one of the Agency’s SSN/name matching routines
           used to resolve unmatched name and SSN data submitted to SSA in employers’ wage
           reports (see Appendix C for a list of matching routines and related correspondence). 3
           1
             Employers submit annual wage reports to SSA for all employees. SSA offers various types of media
           (that is, electronic, paper form, and CD-ROM) through which an employer can submit their wage reports.
           The earnings data that is received is processed through SSA’s Annual Wage Reporting system. Upon
           validation of the reported SSN and name, the reported earnings are posted to each individual’s earnings
           record.
           2
             The MEF contains all reported Federal Insurance Contributions Act (FICA) and non-FICA earnings data
           reported by employers and self-employed individuals. Earnings associated with FICA are used by SSA in
           calculating Old-Age, Survivors and Disability Insurance benefits. However, some types of non-FICA
           earnings, such as deferred compensation, can be used in determining the amount of SSA benefits.
           3
            These Single Select corrections are not reported to employers. In our September 2006 audit,
           Effectiveness of Decentralized Correspondence Sent to Employers (A-03-06-26096), we noted that the
Page 2 - The Commissioner


The Single Select edit assumes the individual's reported last name is correct, but some
mistake has been made with the SSN. Single Select creates up to 89 possible
variations of the SSN and matches them against the Numident. If one SSN/name
match is found, the earnings are posted to the validated SSN. If no exact match is
found on the last name, the Single Select edit is extended further to search for a match
on the individual’s entire name. If the SSN/name is validated through this new
                                      4
Extended Single Select edit routine, the earnings are posted to that validated SSN. If
the extended search fails to validate the name and SSN, the record is marked as invalid
and is posted to the ESF.

SSA uses the ESF Reinstates File to record earnings items posted as a result of the
Single Select edit, as well as other edits, to maintain a record of the change from the
reported name/SSN to the corrected name/SSN. The Reinstates File was not designed
to maintain a record on every reinstatement, but instead maintain sufficient information
on each unique correction so that this information can be used if the same error is
reported in future TYs by the same employer.

RESULTS OF REVIEW

Our review found that SSA’s Single Select edit routine has been an effective edit for
resolving name/SSN mismatches on reported FICA earnings. The edit has corrected
an estimated 46.6 million items associated with approximately $228 billion in earnings
since TY 1937. Moreover, we reviewed a sample of postings and determined that the
earnings items posted to the MEF were consistent with the identity and work history of
the located earners. While we found that the Extended Single Select corrections were
not being properly identified in SSA’s ESF Reinstates File at the time of our audit, SSA
has since corrected this problem. Finally, we found anomalies related to non-FICA
earnings, though we determined the problems related to employer reporting issues and
were not associated with the Single Select edit process. The non-FICA earnings issues
we identified related to five employers who reported excessive amounts for Health
Savings Accounts (HSA) and deferred compensation.

SINGLE SELECT CORRECTIONS

We estimate that the Single Select process has reinstated an estimated 46.6 million
items representing approximately $228 billion in earnings between TYs 1937 and 2005.
When compared to the other edit processes, Single Select has resolved the most
mismatched names/SSNs on reported earnings. While we found that the Extended
Single Select corrections were not being properly identified in SSA’s ESF Reinstates
File at the time of our audit, SSA has since corrected this problem.



lack of SSA feedback on wage reporting errors not only prevents employers from correcting the employee
data sent to SSA, but it may also lead to employers using incorrect names/SSNs on other State and
Federal documents.
4
 While in this report we use the term “Extended Single Select,” SSA’s internal guidance refers to this edit
as the “IST/Single Select Combination.” This edit routine became effective in TY 2003.
Page 3 - The Commissioner


Estimated Corrections
                                       5
In our review of 5 percent of the MEF, we found that 2.3 million items associated with
$11.4 billion in earnings were posted to the MEF via the Single Select process for TYs
                             6
1937 to 2005 (see Table 1). These Single Select postings related to the original Single
Select edit routine as well as the more recent Extended Single Select edit. In terms of
the entire MEF, we estimate that approximately 46.6 million items associated with
$228 billion in earnings had been reinstated to the MEF during this period under either
the Single Select or Extended Single Select routine.

                 Table 1: Single Select FICA Postings for TYs 1937 to 2005
                                           (as of October 2006)
                                              Estimated
                            Posted         Posted Earnings                                Estimated
                        Earnings Items           Items        Posted Earnings          Posted Earnings
        Edit Type        (1 Segment)        (20 Segments)       (1 Segment)             (20 Segments)
     Single Select            2,328,100          46,562,000           $11.4 billion           $228 billion
     Extended
                                   4,300              86,000         $20.7 million           $414 million
     Single Select
     Total                    2,332,400          46,648,000          $11.4 billion         $228.4 billion
    Note: Numbers rounded to the nearest billion.

About 99.8 percent of the earnings items were posted as result of the original Single
Select edit routine. The remaining 0.2 percent of the earnings items were posted as a
result of the Extended Single Select edit routine.

Reinstates File

A review of the ESF Reinstates File for TY 2005 7 indicated the Single Select edit
routine corrected more items than any other edit process, or approximately 65 percent
of the earnings items in this file (see Appendix C for a description of all the processes).
In Figure 1, we provide a breakout of the content of the ESF Reinstates File for
TY 2005.




5
  The MEF database contains 20 segments, which are based on the last 2 digits of the SSN. We
randomly selected one segment for review. Each segment is assumed to be representative of the entire
MEF.
6
 We limited our MEF analysis to earnings reported as FICA wages. As a result, our analysis will
underestimate the earnings of individuals earning more than the FICA maximum for the years in question.
We performed a separate analysis on the non-FICA earnings and discuss this later in the report.
7
  We limited our analysis to the ESF Reinstates File for wages reported by employers. The ESF
Reinstates File was not designed to capture all reinstated items. Instead, the Reinstates File captures the
latest entry in a series of reinstatements so this information can be used to resolve similar problems in the
future. SSA staff explained to us that the Reinstates File is more of a "processing file" than a
management information system.
Page 4 - The Commissioner


                       Figure 1: Contents of the Earnings Suspense File
                                   Reinstates File (TY 2005)


                                            6%       1%



                              28%




                                                                    65%



                                  Single Select
                                  Prior Reinstate
                                  Decentralized Correspondence
                                  Other Reasons


The next most successful process is Prior Reinstate with 28 percent of the Reinstates
File. This edit is used when subsequent employer wage reports contain an unmatched
SSN/name fitting the same characteristics as a previously corrected wage item from the
same employer’s wage report. Hence, Prior Reinstate items are basically a “ripple
effect” from prior corrections. Earnings items posted as a result of Decentralized
                             8
Correspondence (DECOR) represented 6 percent of the file. The remaining 1 percent
of the items in the file was posted for various other reasons.

Prior Reinstate Items

To better understand the Prior Reinstate items, we reviewed 50 randomly selected Prior
Reinstate items from the TY 2005 Reinstates File to determine the originating edit
routine. 9 We found that approximately 78 percent of TY 2005 Prior Reinstate postings
were due to initial Single Select postings (see Table 2 for our results). Hence, Single
Select has a significant “ripple effect” on later employer wage reports, which further
increases the effectiveness of this edit.




8
 The main purpose of the DECOR notice is to contact employees and employers to resolve SSN and/or
name discrepancies. SSA reviews the returned notice, validates the information provided, and if
appropriate, removes the earnings from the ESF for posting to the individual’s MEF record. See
Appendix C for more on this edit.
9
    A total of 526,998 earnings items were posted to the MEF as Prior Reinstate items in TY 2005.
Page 5 - The Commissioner


               Table 2: Originating Edit for 50 Prior Reinstate Items (TY 2005)
                   Original Reinstatement Process                      Items           Percentage
       Single Select                                                     39                  78
       Decentralized Correspondence                                      3                    6
       Reinstatement from Internal Revenue Service                       4                    8
       Other                                                             4                    8
       Total Prior Reinstate Items                                       50               100%
      Note: See Appendix C for a description of all processes.

Extended Single Select Reinstatements

In our analysis of the ESF Reinstates File data, we determined that the Extended
Single Select corrections were not being recorded in this file. We reviewed a random
sample of 10 Extended Single Select postings from the MEF and traced them back to
the Reinstates File. In all 10 cases, we found no evidence under the employers’
records that these earnings items had been corrected via this edit. While the lack of
this data in the Reinstates File did not impact the individual earner, the corrected item
was not available for future corrections under the Prior Reinstate edit. An identical error
on a future earnings item would still be corrected via the Extended Single Select edit,
but this is inconsistent with other edits and the role of the Prior Reinstates edit.

When we spoke to SSA staff, they concurred that the ESF Reinstates File should have
recorded the correction though the operating procedures did not include a requirement
to do so. The Earnings Branch Manager said the Agency resolved the problem in time
                                  10
for the TY 2006 processing cycle.

ACCURACY OF POSTINGS

We did not find any questionable postings in our review of a sample of Single Select
and Extended Single Select corrections related to FICA postings to the MEF. We
tested 50 randomly selected Single Select/Extended Single Select earnings items 11
corrections from a population of 68,741 corrections processed during Calendar Year
(CY) 2005, 12 representing approximately $383 million in corrected earnings. 13

To determine whether the information in SSA’s records matched the information on the
applicable Wage and Tax Statements (Form W-2), we traced the reported information
on the W-2 associated with the posted earnings (that is, reported SSN, individual’s
name, FICA wages and total compensation) to SSA’s MEF, Numident, and ESF
10
     SSA staff provided evidence that this edit change went into production on March 8, 2007.
11
     We only tested FICA earnings in this step. We discuss our non-FICA work later in the report.
12
     Of the 50 sample items, 49 related to TY 2004. The remaining item related to TY 1996.
13
   We found that, for 49 of the 50 wage items tested, earnings were posted to the MEF as a result of the
original Single Select edit routine, and the remaining item related to the Extended Single Select edit
routine.
Page 6 - The Commissioner


Reinstates File records. We found that the FICA earnings and total compensation data
shown in SSA’s records matched the data on the W-2s for all 50 sample items. We
also found that the 50 earnings items posted to the MEF were consistent with the
identity and work history of the located earners.

ACCURACY OF NON-FICA EARNINGS

In our review of the non-FICA earnings reinstated under Single Select, we found some
questionable trends among the earnings being reinstated. The problems related to
employers reporting excessive amounts rather than the Single Select process itself.

We performed a limited review of non-FICA earnings corrected as a result of Single
Select to determine whether these postings contained any anomalies, such as
                                                                              14
excessive or duplicate amounts that could represent a questionable posting. We
                                                          15
limited our review to transactions processed in CY 2005. We found six non-FICA
earnings records reinstated under Single Select processed during this period that
exceeded $1 million and did not appear to relate to legitimate earnings activity. These
six earnings records, reported by four different employers, represented approximately
$96.6 million in non-FICA earnings. These six postings contained identical amounts of
$16,085,074 reported on the associated W-2s as HSA amounts. 16

In the six cases, the non-FICA earnings reported by employers and recorded by SSA in
the individuals’ MEF records were inconsistent with the individuals' earnings histories.
For example, 1 of the $16 million HSA amounts posted in TY 2004 related to a 20-year-
old earning small amounts whose work history started in TY 2002. He earned $607 in
TY 2002, showed no earnings for TYs 2003 through 2004, and then earned $1,805 in
TY 2005 and $7,227 in TY 2006. It is unlikely the employer, a restaurant owner,
intended to report anything for this individual, since the HSA amount was reported for
TY 2004 even though the individual worked only once for the employer in TY 2002,
earning $68. 17
We also found a seventh deferred earnings transaction processed during CY 2002 that
contained a related error. In the seventh case, we found $80.4 million related to
14
  In our review of the MEF segment, the non-FICA posting from TYs 1937 to 2005 related to
approximately 127,500 items, or about 5 percent of the earnings items corrected by Single Select in this
MEF segment.
15
  Only one transaction fell outside of this period, CY 2002, because the dollar amount in question was
identical to our CY 2005 cases.
16
  HSAs were created by Public Law 108-173 (§ 1201 et seq.), the Medicare Prescription Drug,
Improvement and Modernization Act of 2003, signed into law by President Bush on December 8, 2003.
The HSA is designed to help individuals save for future qualified medical and retiree health expenses on a
tax-free basis. For TY 2007, the maximum contribution to an HSA from all sources is $2,850 for self-only
coverage and $5,650 for family coverage. These amounts are indexed annually. The HSA amounts were
posted to the MEF at the request of SSA’s Office of the Chief Actuary so the Agency could monitor HSA
activity.
17
  Although this employee may have become aware of the error through his TY 2004 W-2, his Social
Security Statement, which he would have begun receiving from SSA at age 25, would not contain an
historical record of the error because the Statement only shows earnings related to FICA and Medicare.
Page 7 - The Commissioner


deferred compensation for TY 2001 was recorded for a 24-year-old who earned a total
of $1,516 at the employer in question during TYs 2001 and 2004. In reviewing the
TY 2001 W-2 for this individual, we found that that the employer reported
$16,085,074 in deferred compensation in five different categories for this individual,
amounting to a total of about $80.4 million.

A further review of the seven non-FICA earnings items reported by the five employers
for the TYs in question indicates that similar errors were reported and recorded within
SSA’s MEF for all reported wages. If we assume the same errors occurred throughout
the entire wage reports, we estimate the overstatement on SSA’s MEF could be as high
as $64.4 billion 18 (see Table 3 and Appendix D for additional details).

                   Table 3: Estimate of Overstated Non-FICA Earnings
                                                              Total Wage                 Potential
                    Tax Year in          Amount in          Reports for Tax          Overstatement in
                                                                                                         a
      Employer       Question            Question           Year in Question        Master Earnings File
     Employer 1        2004            $16,085,074                 256                    $4.1 billion
     Employer 2        2004            $16,085,074                 315                     5.1 billion
     Employer 3        2004            $16,085,074                 781                    12.3 billion
     Employer 4        2004            $16,085,074                 313                     5.0 billion

     Employer 5        2001            $80,425,368                 471                  37.9 billionb
      Totals                          $144,765,664                2,136                $64.4 billion
Note a: Represents actual amounts reported by employers to SSA as HSA funds.
Note b: This is an estimated amount of deferred earnings based on the number of reported wage items
since SSA’s systems could not provide this detail for TY 2001.

We shared our findings with SSA systems staff and they noted that they were aware of
a vendor software problem during TY 2004 that led to employers over-reporting
amounts related to HSAs. The staff stated that they sought resolution to the problem
by attempting to get employers to discontinue use of the flawed wage reporting
software products and to submit corrected reports for previous wage reporting errors.
In addition, the staff noted that the TY 2004 cases 19 caused SSA to implement several
improvements to provide better protection against a future occurrence, including the
following:

•     In TY 2006, SSA’s process required submitters of wage reports to provide a
      software vendor ID code. This will help SSA identify the vendor, and to
      confirm cases where vendor software is suspected of having a specific flaw.
•     In TY 2007, SSA plans to add new edits that cause an electronic wage report to be
      investigated when (1) the average money field on a wage report exceeds the
      $1 million threshold and (2) a specific number of W-2s also exceed this threshold.

18
  We did not perform a review of the entire MEF since this was not part of our audit objective. As a result,
the extent of this reporting error could be greater.
19
  Since we also found a TY 2001 case, it appears this error was present earlier than TY 2004, though it
was in relation to deferred earnings and not the HSA.
Page 8 - The Commissioner


     In such cases, the Office of Central Operations will contact the submitters of the
     wage reports and ask the parties to confirm the accuracy of the amounts.

As of June 2007, none of the overstated non-FICA amounts had been corrected. SSA
staff stated that both the employers and the IRS were notified of the TY 2004 error.
Further, SSA staff noted that the overstated HSA amounts represent more of an
employer reporting issue then a program issue since these amounts would not count as
                                                                  20
income or resources for the purpose of calculating SSA benefits.

CONCLUSION AND RECOMMENDATIONS
We found that SSA’s Single Select edit routine has been an effective edit for resolving
name/SSN mismatches on reported FICA earnings. While we found that the Extended
Single Select corrections were not being properly identified in SSA’s ESF Reinstates
File at the time of our audit, SSA has since corrected this problem. In addition, as part
of our audit we found a number of anomalies related to non-FICA earnings that need
management’s attention.

To improve the accuracy of non-FICA earnings records, we recommend SSA:

1. Review the non-FICA earnings cases identified to determine what additional actions
   SSA can take to ensure (a) the employers are aware of these reporting errors,
   (b) the earlier amounts reported in error are corrected, and (c) other similar
   employer problems occurring during TY 2004 are corrected. These additional
   actions could include additional coordination with the Internal Revenue Service.

2. Ensure the planned edits for TY 2007 are established and tested to initiate an
   investigation of when (1) the average money field on a wage report exceeds the
   $1 million threshold and (2) a specific number of W-2s also exceed this threshold
   and, as appropriate, contact employers and/or wage report submitters to confirm the
   accuracy of these amounts.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




                                                    Patrick P. O’Carroll, Jr.




20
 Deferred compensation can be considered in calculating SSA benefits. See SSA Program Operations
Manual System Retirement and Survivors Insurance 01401.060: Deferred Compensation – General.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Edit Routines and Correspondence

APPENDIX D – Reported Earnings for Five Employers

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
CY         Calendar Year
DECOR      Decentralized Correspondence
DoB        Date of Birth
EAD        Earnings After Death
EDCOR      Educational Correspondence
ESF        Earnings Suspense File
FICA       Federal Insurance Contributions Act
HSA        Health Savings Account
ICOR       Item Correction
IRS        Internal Revenue Service
MEF        Master Earnings File
NH         Numberholder
OIG        Office of the Inspector General
SSA        Social Security Administration
SSN        Social Security Number
TY         Tax Year
WBDOC      Wilkes Barre Data Operations Center
YCER       Young Children’s Earnings Record
Forms
Form W-2   Wage and Tax Statement
                                                                                Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    audit reports.

•   Reviewed polices and procedures regarding the Single Select and Extended Single
    Select edit routines.

•   Reviewed management reports on Single Select and Extended Single Select edit
    statistics.

•   Gained an understanding of SSA’s Single Select and Extended Single Select edit
    processes.

•
                                         1
    Obtained a Master Earning File (MEF) data extract of Single Select and Extended
    Single Select postings for segment 12 of the MEF. We analyzed this file to
    determine whether FICA earnings and total compensation amounts were accurately
    posted to SSA’s wage reporting system. We also extracted, summarized, and
    tested non-FICA earnings and deferred compensation amounts posted as a result of
    these edit routines.

•   Obtained an Earning Suspense File (ESF) Reinstates File as of October 2006.
    Using this information, we determined the number of items reinstated from the ESF
    to the MEF and the reason for the reinstatements.

•   Randomly selected 50 earnings items corrected by Single Select and Extended
    Single Select from a total of 68,741 corrections processed in Calendar Year 2005
                               2
    for 1 segment of the MEF. We compared the information on the Wage and Tax
    Statement (Form W-2) reported to SSA, to the name and Social Security number
    (SSN) recorded within SSA’s Numident, the name and SSN on the ESF Reinstates
    File, and the earnings history of the SSN owner recorded on SSA’s MEF.




1
 The MEF contains all reported FICA and non-FICA earnings data reported by employers and self-
employed individuals.
2
  The MEF database contains 20 segments, which are based on the last 2 digits of the SSN. We
randomly selected one segment for review. Each segment is assumed to be representative of the entire
MEF.


                                                 B-1
•   Randomly selected 50 earnings items corrected by the Prior Reinstate edit from a
    total of 526,998 corrections posted to the ESF Reinstates File for Tax Year 2005.
    We then reviewed prior correction activity in both the Reinstates File and MEF to
    determine the original edit process that led to this later correction.

We determined the MEF data extract used in our review was sufficiently reliable for us
to meet our objective. The entity responsible for the Single Select and Extended Single
Select edit routines is the Earnings Records Maintenance Branch under the Deputy
Commissioner for Systems. Our work was conducted in Philadelphia, Pennsylvania,
from December 2006 to June 2007. We conducted our audit in accordance with
generally accepted government auditing standards.




                                          B-2
                                                                                Appendix C

Edit Routines and Correspondence
As part of the Annual Wage Reporting process, the Social Security Administration
(SSA) uses a variety of manual and automated matching routines to resolve name and
Social Security number (SSN) combinations that do not match SSA’s records. 1 In
addition, SSA sends correspondence to employees and employers in an effort to obtain
corrected information.

Edit Processes

SSA uses a variety of editing routines and other processes to correct and post many of
the wages items with name/SSN mismatches or other problems, both before and after
they go into the Earnings Suspense File (ESF). The following is a description of the
various edits.

•     Overnight Validation: This process identifies name/SSN mismatches on the
      reporting year's paper Wage and Tax Statement (Form W-2) before routine edits are
      performed. Any processed name/SSN mismatches go through additional edits and
      those items not corrected are highlighted in a return electronic transmission from the
      National Computer Center to the Wilkes-Barre Data Operations Center (WBDOC).
      WBDOC technicians look at the image of the original Form W-2 and re-key any
                                                                            2
      incorrect items. They also input the employee address, if available, to all returned
      items—whether corrected or not—for later Decentralized Correspondence (DECOR)
      and FERRET activities (see below).
•     Prior Reinstate: This process checks the ESF Reinstate File for instances where
      the same SSN/Name reporting error associated with the same employer had
      previously occurred and was corrected. If a match is found, the earnings item is
      posted to the earner’s record associated with the earlier correction.
•     Single Select: This operation assumes the reported name is correct and the SSN is
      wrong. Many errors are caused when the name is correct, but there is a
      transposition error in the SSN. The operation creates "ghost" records from
      combinations of numbers in the reported SSN with the reported last name. The
      system then screens these records against their related Numident records—the
      Numident file is SSA’s database of all valid SSNs—creating up to 89 possible
      variations of the SSN. If one and only one Numident record matches the reported
      name, the item is reinstated.




1
 In a limited number of instances, the name and SSN match SSA’s records, but some other issue has
been identified, such as the employee being deceased or under age 7 within SSA’s records. In these
cases, SSA seeks clarification from the employer.
2
    SSA correspondence would use the employer address when the employee address is not available.

                                                  C-1
•     ST/Single Select Combination: 3 If no exact match is found on the last name under
      Single Select, the edit process is extended further to search for a match on the
      individual’s entire name. If the SSN/name is validated through this edit routine, the
      earnings are posted to that validated SSN. If the extended search fails to validate
      the name and SSN, the earnings item is posted to the ESF.
•     Operation 30: This process identifies ESF items with valid SSNs and connects
      SSA's Numident records with the ESF item. It assumes the SSN is correct, but the
      name is wrong. Technical staff performs a sight comparison to review reported data
      against online SSA records and make judgments to accept wage items for Master
      Earnings File (MEF) 4 posting or send the data back to the ESF.
•     SWEEP: SWEEP is an electronic operation that periodically uses SSA’s latest
      system enhancements and validation rules, including the more than 20 routine edits
      used on incoming wages, to remove items from the ESF and reinstate them to wage
      earners’ MEF records.
•     GAP SWEEP: GAP SWEEP scans earnings records for valid SSNs in the ESF and
      assesses whether yearly gaps in earnings exist in the MEF record and might be
      linked to similar earnings in the ESF.
•     Item Correction (ICOR): This process allows SSA staff to correct the earnings
      record of an individual through a system called ICOR. The system is a
      computerized process for adjusting an individual’s earnings record thereby helping
      SSA establish and maintain an accurate and complete MEF. This system allows
      SSA employees to add, change, move, or delete an individual’s earnings overnight
      via online interactive screens. ICOR is a paperless system—with proofs and
      rationale recorded electronically after an initial inspection by an SSA employee(s).
•     Reinstatements from the IRS: While SSA is attempting to resolve mismatched
      names and SSNs within the ESF, the Internal Revenue Service (IRS) is performing
      a similar process. The IRS provides SSA a file containing resolved mismatches so
      that SSA can use this information to locate the owners of suspended items in the
      ESF.
•     SSA/IRS Earnings Reconciliation Process: The SSA/IRS earnings reconciliation
      process compares employee wage data submitted to the IRS to wage data
      submitted to SSA. Employers, their representatives, third parties and agents submit
      wage data to both agencies. When more wages are reported to the IRS than to
      SSA, SSA examines these cases and attempts to resolve any difference without
      contacting the employer. When this effort is unsuccessful, SSA sends a notice and
      questionnaire to the employer, requesting information to resolve the case. If SSA
      does not receive a response within 45 days, the employer is sent a second notice.
      When no response is received after the second notice, the IRS is responsible for
      contacting the employer and may impose penalties, if necessary. 5

3
    We refer to this process as Extended Single Select in this report.
4
  The MEF contains all reported Federal Insurance Contributions Act (FICA) and non-FICA earnings data
reported by employers and self-employed individuals. Earnings associated with FICA are used by SSA in
calculating Old-Age, Survivors and Disability Insurance benefits. However, some types of non-FICA
earnings, such as deferred compensation, can be used in determining the amount of SSA benefits.
5
  Agreement Between SSA and the IRS, 1998.

                                                      C-2
•   FERRET: FERRET is a periodic electronic operation that uses SSA and IRS
    records to make reinstatements from the ESF to wage earners’ records. WBDOC
    creates the FERRET file—basically an address file—from the nonresponder
    DECOR file. The FERRET file is processed against IRS tax returns for matches to
    address data. Names or parts of names are then propagated from the IRS file to
    create possible reinstatements. These possible matches are then screened using
    SSA’s SSN validation process.
•   Additional Edits: The Agency has also modified its automated processes to improve
    the identification of numberholders (NH) related to items in the ESF. SSA stated the
    new processes use information stored on the earnings and benefits records
    whereas previous internal edits only used the names and SSNs related to the
    suspended wages.

Correspondence to Employers and Employees

SSA sends out millions of letters to employers and employees each year requesting
additional information to correct suspended wage items. The four main letters sent to
employers and employees are (1) DECOR, (2) Educational Correspondence (EDCOR),
(3) Earnings After Death (EAD), and (4) Young Children’s Earnings Record (YCER).

•   DECOR: When wage items are posted to the ESF, SSA’s system generates notices
    to employees and employers. The main purpose of DECOR notices is to query
    employees and employers to resolve SSN and/or name discrepancies. While these
    notices are usually mailed to employees, letters are mailed to an employer if there is
    no address for the employee. SSA reviews the returned DECOR notices, validates
    the information provided, and if appropriate, removes the wage item from the ESF
    for posting to an individual’s MEF record. 6 If individuals do not respond to DECOR
    notices, their information goes through the FERRET operation (described above).
•   EDCOR: When SSA processes a Form W-2 report with a name and/or SSN that
    does not match SSA’s records, it sends a notice to the employer. These notices
    state that SSA received wage items that could not be validated and list up to
    500 SSNs in an attachment, but do not provide names. SSA requests that
    employers file corrected Form(s) W-2 to correct the error(s). The notices sent to
    employers also specify that mismatches do not imply that incorrect information was
    intentionally provided and that the letter is not a basis, in and of itself, for an
    employer to take any adverse action against an employee.


    SSA is currently sending notices to all employers who submitted more than
    10 Forms W-2 that SSA could not process, and the mismatched forms represent
    more than 0.5 percent of the total Forms W-2 reported to SSA.




6
 For more on this edit, see the following SSA Office of the Inspector General (OIG) reports: Effectiveness
of the Social Security Administration’s Decentralized Correspondence Process (A-03-01-11034), July
2002; and Effectiveness of Decentralized Correspondence Sent to Employers (A-03-06-26096),
September 2006.

                                                   C-3
•   EAD: SSA also has processes in place to detect unusual earnings reports—such as
    instances where earnings relate to someone recorded as deceased on SSA's
    records. Under the EAD process, when a date of death is present on the Numident,
    all earning items reported for TYs after the year of death are placed in the ESF. The
    earnings are also transmitted to an EAD investigative file so that notices can be
    printed and mailed to employers and/or earners. SSA sends EAD notices to
    employers and employees. Employer responses are returned to SSA for
    processing. If the employer states the individual was working for them, SSA sends
    a notice to the employee requesting that he or she visit a field office to correct his or
    her earnings information. At the field office, staff interviews the individual and
    verifies his or her identification. If the evidence appears valid, SSA personnel
    reinstate the wages to the proper MEF account. If the employer states the wage
    earner is deceased, SSA informs the employer to refund the employee's share of
    the Social Security taxes to the employee's estate or next of kin, and the relevant
                                                                                      7
    wages will remain in the ESF. We reviewed the EAD process in a prior audit.
•   YCER: Another unusual earnings pattern monitored by SSA relates to young
    earners. Under the YCER process, SSA checks the Date of Birth (DoB) for the SSN
    on each earnings report. If a DoB indicates that the NH of the SSN is a child under
    age 7, the earnings will be placed into the ESF. When the Form W-2 reporting
    process is complete, a YCER investigate file is generated to determine whether the
    earnings belong to the reported SSN; i.e. a child under age 7. SSA sends YCER
    notices to employers and employees. Employer responses are returned to SSA for
    processing. If the employer states the NH’s SSN, name and DoB agree with SSA’s
    records, the wages are reinstated to the NH. If the employer states the NH’s name
    and SSN are the same as SSA’s records, but the DoB is different, a form is sent to
    the NH advising him or her to contact the local SSA office to correct the
    discrepancy. If the employer states the name and/or SSN is different from SSA’s
    records, the information is further researched. If the employer does not return the
    form or states that the NH of the SSN did not work for them, a letter is sent to the
    NH of the SSN asking him or her to contact the local SSA field office. We reviewed
    the YCER process in a prior audit. 8




7
 SSA OIG, Effectiveness of the Social Security Administration’s Earnings After Death Process
(A-03-01-11035), August 2002.
8
 SSA OIG, Effectiveness of the Young Children's Earnings Records Reinstatement Process
(A-03-05-25009), October 2006.

                                                  C-4
                                                                                   Appendix D

Reported Earnings for Five Employers
Seven wage item errors reported by five employers were identified during our review.
These seven errors related to excessive non-Federal Insurance Contributions Act
(FICA) earnings of approximately $144.7 million posted to the Social Security
Administration’s (SSA) Master Earnings File (MEF). 1 If we assume the same employer-
related errors occurred throughout the entire wage reports of the five employers
associated with these seven earnings items, we estimate the overstatement on SSA’s
MEF could be as high as $64.4 billion. 2 Approximately $26.5 billion of this amount
relates to Health Savings Accounts (HSA) 3 and the remaining $37.9 billion relates to
deferred compensation. SSA staff noted that the overstated HSA amounts represent
more of an employer reporting issue then a program issue since these amounts would
not count as income or resources for the purpose of calculating SSA benefits. 4 Table
D-1 shows the information reported by the five employers.




1
 The MEF contains all reported FICA and non-FICA earnings data reported by employers and
self-employed individuals. Earnings associated with FICA are used by SSA in determining quarters of
coverage under the Old-Age, Survivors and Disability Insurance program. However, some types of non-
FICA earnings, such as deferred compensation, can be used in determining the amount of SSA benefits.
2
 We did not perform a review of the entire MEF since this was not part of our audit objective. Hence, the
extent of this reporting error could be greater.
3
  HSAs were created by Public Law 108-173 (§ 1201 et seq.), the Medicare Prescription Drug,
Improvement and Modernization Act of 2003, signed into law by President Bush on December 8, 2003.
The HSA is designed to help individuals save for future qualified medical and retiree health expenses on a
tax-free basis. For TY 2007, the maximum contribution to an HSA from all sources is $2,850 for self-only
coverage and $5,650 for family coverage. These amounts are indexed annually. The HSA amounts were
posted to the MEF at the request of SSA’s Office of the Chief Actuary so the Agency could monitor HSA
activity.
4
 However, deferred compensation can be considered in calculating SSA benefits. See SSA Program
Operations Manual System Retirement and Survivors Insurance 01401.060: Deferred Compensation –
General.
                                                   D-1
Table D-1: Estimate of Overstated Non-FICA Earnings in the Master Earnings File
                                                                               Health
                                                                             Savings
                                               Total                         Account
                               Amount          Wage                            (HSA)/
                              Posted to      Reports       Medicare          Deferred           Estimated
               Tax Year        Master         for Tax      Earnings           Income         Overstatement
                  in          Earnings        Year in     Reported by      Reported by        in the Master
                                    a                               b                    c
 Employer      Question         File         Question      Employer         Employer         Earnings File
 Employer 1      2004        $16,085,074        256           $625,386       $4.1 billion        $4.1 billion
 Employer 2      2004        $16,085,074        315         $1,139,782         5.1 billion        5.1 billion
 Employer 3      2004        $16,085,074        781         $6,876,202       12.3 billion        12.3 billion
 Employer 4      2004        $16,085,074        313           $689,725         5.0 billion        5.0 billion

                                                                                     d
 Employer 5       2001       $80,425,368         471         $1,479,346          NA               37.9 billion
                                                                                                             e
   Totals                   $144,765,664        2,136       $10,810,441     $26.5 billion      $64.4 billion
Note a: Represents actual amounts reported by employers on the Wage and Tax Statement (Form W-2) with the
exception of Employer 5. In this case, the employer reported $16,085,074 in 5 different deferred income fields,
amounting to $80,425,368 per W-2.
Note b: We used Medicare wages since these wages represent total annual compensation rather than the
portion of earnings subject to the FICA tax. For instance, someone earning $100,000 in Tax Year 2004 would
show $100,000 in Medicare wages and only $87,900 in FICA wages.
Note c: Shows actual amounts reported by employers. Employers 1-4 relate to HSA reported amounts, whereas
Employer 5 relates to deferred income.
Note d: SSA’s systems could not provide this detail for TY 2001. However, a review of other earnings items
associated with this employer indicated that $80,425,368 was consistently reported as deferred income.
Note e: Approximately $26.5 billion of this amount relates to HSAs reported by Employers 1-4 and the remaining
$37.9 billion relates to deferred compensation reported by Employer 5.




                                                  D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 21, 2007                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "Effectiveness of the Single Select Edit
           Routine” (A-03-07-17065)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “EFFECTIVENESS OF THE SINGLE SELECT EDIT ROUTINE”
(A-03-07-17065)

Thank you for the opportunity to review and provide comments on this draft report. We would
like to stress that the Health Savings Account employer reporting errors found during this review
do not affect the way we calculate benefits and do not have any impact on the trust funds.

Our comments on the draft recommendations are as follows.

Recommendation 1

Review the non-Federal Insurance Compensation Act (FICA) earnings cases identified to
determine what additional actions SSA can take to ensure: a) the employers are aware of these
reporting errors; b) the earlier amounts reported in error are corrected; and c) other similar
employer problems occurring during tax year (TY) 2004 are corrected. These additional actions
could include additional coordination with the Internal Revenue Service (IRS).

Comment

We agree. We will obtain from OIG the specific employer information for those cases identified
during this review. We will contact those employers and encourage them to correct their
reporting errors by submitting a Form W2-c (Corrected Wage and Tax Statement). Once we
obtain the corrected wage reports (Form W2-c), we will post the corrections to the earnings
records and transmit the corrected information to IRS through our normal process. Therefore, no
additional contact with IRS is necessary, as they are already involved in the corrected wage
reporting process. As for the review of similar employer reporting problems that may have
occurred during TY 2004, we do not currently have the available resources to expend on such a
task. However, we do have a wage reporting reconciliation process in place with IRS to ensure
that employer wage reported totals are in agreement with the reported tax information submitted
to IRS. This reconciliation process helps to ensure that reported covered wage earnings are
properly accounted for and posted to individual earnings records. As noted in OIG’s report, we
did take actions to provide better protection against such wage reporting software occurrence in
the future. At the time of the discovery of the employer reporting error, we attempted to have the
employers discontinue the use of the flawed wage reporting software products and to submit
correct wage reports (Forms W2-c).

Recommendation 2

Ensure the planned edits for TY 2007 are established and tested to initiate an investigation of
when: a) the average money field on a wage report exceeds the $1 million threshold; and b) a
specific number of W-2s also exceed this threshold and, as appropriate, contact employers and/or
wage report submitters to confirm the accuracy of these amounts.




                                               E-2
Comment

We agree. We have already taken steps to place the edits into the TY 2007 software for the
Annual Wage Reporting process. Currently, the TY 2007 software is in the process of moving
into the Validation Stage of the System Life Cycle. Implementation is on target for
January 2008.




                                            E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter E. Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, Philadelphia Audit Office, (215) 597-0572

Acknowledgments

In addition to those named above:

   Brenda Williams, Auditor-in-Charge

   Rich Devers, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-07-17065.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
